                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AUDIT OF CORPORATION FOR NATIONAL AND
   COMMUNITY SERVICE GRANTS AWARDED TO THE
    OKLAHOMA COMMUNITY SERVICE COMMISSION

              OIG REPORT NUMBER 06-33




                       Prepared by:

            MAYER HOFFMAN McCANN P.C.
                  2301 Dupont Drive
               Irvine, California 92612




This report was issued to Corporation management on September 29, 2006.
Under the laws and regulations governing audit follow-up, the Corporation is to
make f  inal management deci        sions on t      he r epor t
                                                              ’s f  i
                                                                    ndi
                                                                      ngs and
recommendations no later than March 29, 2007, and complete its corrective
actions by September 29, 2007. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                Audit of Corporation for National and Community Service
                                 Grants Awarded to the
                       Oklahoma Community Service Commission
                                   Audit Report 06-33


OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Mayer Hoffman McCann P.C. (Mayer) to perform an incurred-
cost audit of grants awarded to the Oklahoma Community Service Commission
(Commission).

Federal costs claimed by the Commission during the audit period totaled $3,848,152. Of
this amount, the auditors questioned $4,703 of grant costs and $372,686 in match costs.
Some of the questioned match was claimed in excess of the minimum match required.
The auditors also identified five issues of noncompliance with Federal laws and grant
provisions and three internal control matters. The internal control matters are considered
material weaknesses.

In its response to the draft audit report, the Commission substantially agreed with the
findings and was in the process of implementing corrective actions to address the
recommendations. One item concerning claimed match costs remains unresolved and
will be addressed during the audit resolution phase.

TheOI   Gr   evi ewe d Ma  yer’sr eporta nd r elated doc ume  nta t
                                                                  ion and ma   dene c es
                                                                                       sa ry
inquiries of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
expr ess,a ndwedonote       xpre ss
                                  ,a nopi nionont   heCommi    ss i
                                                                  on’sfinanc ia lstat
                                                                                    eme nts,
conclusions about the effectiveness of internal control or conclusions on compliance with
lawsa n dr eg ula t
                  ions.Ma  y erisrespons i
                                         blef orthea  tt
                                                       ache da udi t
                                                                   or’sreport dated April 7,
2006, and the conclusions expressed in the report. However, our review disclosed no
instances where Mayer did not comply, in all material respects, with generally accepted
government auditing standards.

The OIG provided officials of the Commission and the Corporation with a draft of this
report for review and comment. Their responses are included as Appendices A and B,
respectively.

This report is a matter of public record and its distribution is not limited.
                    Audit of Corporation for National and Community Service
                                     Grants Awarded to the
                           Oklahoma Community Service Commission
                                   Oklahoma City, Oklahoma

                                            TABLE OF CONTENTS

                                                                                                                      Page
REPORT SUMMARY AND HIGHLIGHTS
                                                                                                                   .
     Executive Summary .......................................................................................…………….1

                                                                                                                            .
        Background ....................................................................................................…………….1

                                                                                                                  .
        Purpose and Scope of Audit...........................................................................…………….2

                                                                                                                   .
        Grant Programs Audited ................................................................................………….…3

                                                                                                                         .
        Costs Questioned ...........................................................................................…………….4

                                                                                                                            .
        Compliance ....................................................................................................…………….4

                                                                                                                           .
        Internal Controls ............................................................................................…………….5

        Repor
            tRe
              lea
                se……………………………… ...............................................…………….
                                                                                   .5

                                                                                                   .
INDEPENDENT AUDITOR'S REPORT .................................................................…………….6

FINANCIAL SCHEDULES
                                                                                                      .
     Consolidated Schedule of Award Costs.........................................................………….…8

        Notes to Consolidated Schedule of Award Costs ..........................................…………… 9

        Exhibit A - Schedule of Award Costs:
                                                                                                                  .
                    AmeriCorps ................................................................................……….….
                                                                                                                    .10

                 Schedule A-1 - Schedule of Award Costs:
                                                                                                      ………….
                                Town of Okeene ........................................................   ..
                                                                                                           11

                 Schedule A-2 - Schedule of Award Costs:
                                                                                                  .
                                Communities in Schools..............................................
                                                                                                   …………12

                 Schedule A-3 - Schedule of Award Costs:
                                                                                                   ………….
                                American Red Cross..................................................   ..
                                                                                                        14
                  Audit of Corporation for National and Community Service
                                   Grants Awarded to the
                         Oklahoma Community Service Commission
                                 Oklahoma City, Oklahoma

                              TABLE OF CONTENTS, (CONTINUED)
                                                                                                  Page
               Schedule A-4 - Schedule of Award Costs:
                                                                                              .
                              United Way of Ponca City..........................................
                                                                                               ………….15

       Exhibit B –Schedule of Award Costs:
                  Administrative ............................................................................……………16

       Exhibit C –Schedule of Award Costs:
                  Learn And Serve America Community-Based Grants ...............……………17

               Schedule C-1 - Schedule of Award Costs:
                                                                                               ………….
                              Communities in Schools............................................   ..
                                                                                                    18

               Schedule C-2 - Schedule of Award Costs:
                                                                                              ………….
                              YMCA of Greater Tulsa............................................   ..
                                                                                                   19



COMPLIANCE AND INTERNAL CONTROLS
    Report on Compliance and Other Matters and on Internal Controls over Financial
           Reporting Based on an Audit of Financial Schedules Performed in Accordance
                                                                                                 .
           with Government Auditing Standards................................................…………..
                                                                                                  20

                                                                                                                .
               Compliance Findings .........................................................................…………..
                                                                                                                 21

                                                                                                               .
               Internal Control Findings...................................................................…………..
                                                                                                                30

RESPONSES TO REPORT

       Oklahoma Community Service Commission…………..................................…Appe
                                                                                      ndi
                                                                                        xA

       Corporation for National and Community Service.........................................…Appe
                                                                                                  ndi
                                                                                                    xB
REPORT SUMMARY AND HIGHLIGHTS
Office of Inspector General
Corporation for National and Community Service


This report is issued under an Office of Inspector General (OIG) engagement with Mayer
Hoffman McCann P.C. to audit the costs claimed by Oklahoma Community Service Commission
(Commission) and its subgrantees from August 6, 2003, through December 31, 2005, under
grants awarded by the Corporation for National and Community Service (Corporation). This
report focuses on claimed costs, instances of noncompliance with Federal laws, applicable
regulations or award conditions, and internal control weaknesses disclosed during the audit.

                                     Executive Summary

As a result of our audit, we are questioning grant costs of $4,703. In addition, we question
$372,686 in match costs claimed. Some of the questioned match is claimed in excess of the
minimum match required. The grant costs questioned are approximately 0.1 percent of the total
$3,848,152 in costs claimed by the Commission. A questioned cost is (1) an alleged violation or
provision of law, regulation, contract, grant, or cooperative agreement, or other agreement or
document governing the expenditure of funds; (2) a finding that, at the time of the audit, such
cost was not supported by adequate documentation; or (3) a finding that the expenditure of funds
for the intended purpose was unnecessary or unreasonable. Costs questioned include living
allowances for members not reported in t      heCor  pora ti
                                                           on’sWeb-Based Reporting System
(WBRS), excess living allowance charges, and other unsupported or inadequately documented
member support costs and direct costs. Details of questioned costs appear in the Independent
Audi tor’sRe port
                .

                                         Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, awards grants and cooperative agreements to State Commissions and other entities to assist
in the creation of full-time and part-time national and community service programs.

The Commission is a nonprofit agency founded in 1994 with the mission to oversee
admini
     st
      rati
         ona  ndi mpl eme nta
                            tionoft   heSt ate’spa rti
                                                     cipa
                                                        tion, through the efforts of various
Commission subgrantee programs, in the National and Community Service Trust Act.

The Commission has received approximately $8 million in funding for various Corporation
programs, and exercised $3.80 million in drawdowns from Corporation funds for the period

                                               1
audited. Of this amount, approximately $3.19 million was distributed to subgrantees. All of the
Commi  ssi
         on’ ssubgrantees were nonprofit organizations, municipalities, or local schools located
throughout the State of Oklahoma. Authorized funding, the Commi   ssi
                                                                    on’ sclaimed expenditures,
and drawdowns by grant are as follows:

                                                                     Claimed       Draw downs
                                           Funding                  within Audit   During Audit
                                          Authorized                   Period        Period
  03AFHOK002 –AmeriCorps Formula         $ 2,787,939                 1,476,533      1,530,245
  03ACHOK001 –AmeriCorps Competitive       3,558,858                 1,500,255      1,606,648
                        Total AmeriCorps   6,346,797                 2,976,788      3,136,893

  04CAHOK001 –Administrative                             456,933       381,959         328,645

  04CDHOK001 –Disability                                  65,480         37,167          32,278

  03KCHOK001 –Learn & Serve America                      998,451       387,429         348,594

  05PDHOK001 –PDAT                                       128,120         64,809          42,044

                     Total –Grants Administered $ 7,995,781           3,848,152*     3,888,454*

* The differences between the amount claimed and amount drawn down are generally due to
  timing issues.

                                 Purpose and Scope of Audit

Our audit covered the costs claimed under the Corporation grant numbers and for the grant
periods detailed on Page 3.

The objectives of our audit were to determine whether:

        financial reports prepared by the Commission presented fairly the financial results of
         the awards;
        internal controls were adequate to safeguard Federal funds;
        the Commission and its subgrantees had adequate procedures and controls to ensure
         compliance with Federal laws, applicable regulations, award conditions, and that
         member services were appropriate to the programs;
        grant costs reported to the Corporation were documented and allowable in accordance
         with the grant terms and conditions; and
        the Commission had established adequate oversight and informed subgrantees of the
         Cor pora ti
                   on’ sGove  r
                              nme  ntPe r
                                        forma  nceandRe  s
                                                         ultsAc  t(GPRA)g  oa ls
                                                                               .

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the

                                               2
amounts claimed against the awards, as presented in the Consolidated Schedule of Award Costs
and the grant-specific Schedules of Award Costs (Exhibits A through C), are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in Exhibits A through C. An audit also includes assessing the accounting
principles used and significant estimates made by the auditee, as well as evaluating the overall
financial schedule presentation. Our audit included reviews of audit reports and work papers
prepared by the independent public accountants for the Commission and its subgrantees in
accordance with the requirements of OMB Circular A-133, Audits of States, Local Governments
and Non-profit Organizations. We believe our audit provides a reasonable basis for our opinion.

We performed our audit at the Commission and its subgrantees during the period February 7,
2006, through April 7, 2006.

The contents of this report were disclosed to and discussed with the Commission and the
Corporation at an exit conference on June 28, 2006. In addition, we provided a draft of this
report to the Commission and to the Corporation for comment on July 20, 2006. Their responses
are included in their entirety as Appendices A and B, respectively.

                                   Grant Programs Audited

Our audit of the Commission covered financial, compliance, and internal controls testing of the
following program awards funded by the Corporation:

            Program              Award Number             Award Period          Audit Period
 AmeriCorps –Formula             03AFHOK002            09/01/03 –08/31/06   09/01/03 –09/30/05
 AmeriCorps –Competitive         03ACHOK001            08/06/03 –08/05/06   08/06/03 –09/30/05
 Administrative                  04CAHOK001            01/01/04 –12/31/06   01/01/04 –12/31/05
 Disability                      04CDHOK001            01/01/04 –12/31/06   01/01/04 –12/31/05
 Learn & Serve America           03KCHOK001            10/01/03 –09/30/06   10/01/03 –12/31/05
 PDAT                            05PTHOK001            01/01/05 –12/31/06   01/01/05 –12/31/05

Our audit of the costs claimed by the Commission under these awards disclosed the following:

                                                                       Percentage of
                    Description                          Amount       Budget/Claimed
       Award Budget                                $     7,995,781           -
       Claimed Costs                                     3,848,152         48.1
       Questioned Grant Costs                                4,703          0.1
       Questioned Match Costs                      $       372,686           -




                                               3
                                        Costs Questioned

The following summarizes the costs questioned on these awards:

AmeriCorps Grants
 Living Allowances Claimed Exceeding the AmeriCorps Limit                       $       679
 Living Allowances Paid To Members Not Enrolled in WBRS                               1,280
 Over-Claimed Member Health Care Benefits                                             2,451
 Costs Incurred Not Within Grant Period                                                  83
 Unallowable Depreciation Expenses                                                      210
      Total Grant Costs Questioned                                              $     4,703

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we made no attempt to project such
costs to total expenditures incurred, based on the relationship of costs tested to total costs. For a
complete discussion of these questioned costs, refer to theI ndepe nde ntAudi  tor’sRe  port.


                                           Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

  1. Over-claimed and unallowable members’living allowances.

  2. Program costs claimed not in accordance with the AmeriCorps Provisions and applicable
     cost principles.

  3. Late submission of required program documents.

  4. Unallowable and unallocable match costs.

  5. Administrative cost percentage exceeded maximum allowable.




                                                 4
                                     Internal Controls

Compliance findings numbered 1 through 5 are also considered internal control weaknesses. In
addition, we noted the following internal control reportable conditions:

 6. The Commission did not have adequate controls in place to safeguard Federal funds.

 7. Program expenditures have not been properly booked into accounting records.

 8. Advance payments were not deposited into a Federally-insured interest bearing account.


                                      Report Release

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, the Commission and its
subgrantees, and the U.S. Congress.




                                             5
              2 3 0 1 Dupont Drive, Suite 2 0 0
              Irvine, California 92612
              949-474-2020 ph
              949-263-5520 fx




Office of Inspector General
Corporation for National and Community Service

                               INDEPENDENT AUDITOR'S REPORT

We audited the costs incurred by Oklahoma Community Service Commission (Commission) for
the award numbers listed below. These costs, as presented in the Consolidated Schedule of
Award Costs and the grant-specific Schedules of Award Costs (Exhibits A through C) are the
responsibility of Commission management. Our responsibility is to express an opinion on the
Consolidated Schedule of Award Costs and Exhibits A through C based on our audit.

            Program                   Award Number      Award Period           Audit Period
 AmeriCorps - Formula                 03AFHOK002     09/01/03 - 0813 1/06   0910 1/03 - 09/30/05
 AmeriCorps - Competitive             03ACHOK001     08/06/03 - 08/05/06    08/06/03 - 09/30/05
 Administrative                       04CAHOK001     01/01/04-12/31/06      01/01/04-12/31/05
 Disability                           04CDHOK001     01/01/04-12/31/06      O1/01/04-12/31/05
 Learn & Serve America                03KCHOK001     1010 1/03 - 09130106   10/01/03 - 12131/05
 PDAT                                 05PTHOK001     01/01/05-12/31/06      O1/01/05-12/31/05

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedules are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial .schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

In our opinion, except for the issues related to the $4,703 in grant questioned costs discussed
previously, the Consolidated Schedule of Award Costs and the grant-specific Schedules of
Award Costs (Exhibits A through C and related Schedules) referred to above present fairly, in all
material respects, the costs claimed for the period August 6, 2003, to December 31, 2005, in
conformity with generally accepted accounting standards in the United States of America.

In accordance with the Government Auditing Standards, we have also issued our Independent
Auditor's Report, dated April 7, 2006, on o w consideration of the Commission's internal
controls over financial reporting and on our tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements and other matters. The purpose of that report
is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial
reporting or on compliance. That report is an integral part of an audit performed in accordance
with Government Auditing Standards and should be considered in assessing the results of our
audit.

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, the Commission and its
subgrantees, and the U.S. Congress.




Mayer Hoffman and McCann, PC
Conrad Government Services Division
Irvine, California
April 7,2006
               Corporation for National and Community Service Awards
                        Oklahoma Community Service Commission

                             Consolidated Schedule of Award Costs

                             August 6, 2003, to December 31, 2005




                                             Approved    Claimed      Questioned
Award Number           Program                Budget      Costs         Costs     Reference
03AFHOK002      AmeriCorps-Formula          $ 2,787,939 1,476,533           3,365
03ACHOK001      AmeriCorps-Competitive        3,558,858 1,500,255           1,338
                      Total AmeriCorps        6,346,797 2,976,788           4,703 Exhibit A

04CAHOK001      Administrative                  456,933     381,959            - Exhibit B

04CDHOK001      Disability                         65,480    37,167            -

03KCHOK001      Learn & Serve America           998,451     387,429            - Exhibit C

05PDHOK001      PDAT                            128,120      64,809            -

                                   Totals   $ 7,995,781 3,848,152          4,703




                                               8
           Corporation for National and Community Service Awards
                      Oklahoma Community Service Commission

                   Notes to Consolidated Schedule of Award Costs

                        August 6, 2003, to December 31, 2005


Reporting Entity

The accompanying Consolidated Schedule of Award Costs includes amounts budgeted,
claimed, and questioned under the grants awarded to the Commission by the Corporation for
the period from August 6, 2003, to December 31, 2005.

The Commission awards its AmeriCorps and Learn and Serve America Community-Based
grant funds to subgrantees that administer the programs and report financial and
programmatic results to the Commission.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
Schedule has been prepared from the reports submitted by the Commission to the
Corporation. The basis of accounting used in preparation of these reports differs slightly
from accounting principles generally accepted in the United States of America as follows:

    Equipment
    Equipment is charged to expense in the period during which it is purchased instead of
    being recognized as an asset and depreciated over its useful life. As a result, the
    expenses reflected in the Schedule of Award Costs include the cost of equipment
    purchased during the period rather than a provision for depreciation. The equipment
    acquired is owned by the Commission while used in the program for which it was
    purchased or in other future authorized programs. However, the Corporation has a
    reversionary interest in the equipment. Its disposition, as well as the ownership of any
    proceeds there from, is subject to Federal regulations.

    Inventory
    Minor materials and supplies are charged to expense during the period of purchase.




                                           9
        EXHIBIT A

SCHEDULE OF AWARD COSTS:
   AMERICORPS GRANTS
                                                                                     Exhibit A
                   Oklahoma Community Service Commission
                            Schedule of Award Costs
                 Corporation for National and Community Service
                 Award Numbers 03AFHOK002 and 03ACHOK001
                     (AmeriCorps –Formula & Competitive)
                   August 6, 2003, through September 30, 2005


   Detail Audits of AmeriCorps                                  Questioned
            Programs                    Claimed Costs          Claimed Costs   Reference

AmeriCorps –Formula 03AFHOK002
Oklahoma Community
  Service Commission                        $         90,299               -

Subgrantees
Youth Services for Stephen County                    128,205               -
Town of Okeene *                                     468,278           1,078 Schedule A-1
Communities in Schools *                             430,702           2,287 Schedule A-2
Little Dixie Community Action                        120,287               -
Seminole County Youth Promise
  Foundation                                         119,033
Oklahoma Conference of the United
  Methodist Church                                   119,729               -

                               Total        $ 1,476,533                3,365

AmeriCorps –Competitive 03ACHOK001
Subgrantees
Oklahoma State Service Council –
  American Red Cross *           $                   465,169           1,045 Schedule A-3
United Way of Ponca City *                           614,982             293 Schedule A-4
Tulsa Housing Authority                              123,198               -
Seminole County Youth Promise
  Foundation                                         296,906               -

                               Total    $       1,500,255              1,338

    * Subgrantee selected for detailed testing.




                                                10
                                                                                 Schedule A-1
                                                                                   Page 1 of 1
                       Oklahoma Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                    Award Numbers 03AFHOK002 and 03ACHOK001
                        (AmeriCorps –Formula & Competitive)
                     September 1, 2003, through September 30, 2005

                                      Town of Okeene


                                                                     Reference
  Approved Budget (Federal Funds)                      $   512,711   Note 1
  Claimed Costs                                        $   468,278   Note 2
  Questioned Costs
     Member Not Enrolled in WBRS                       $       235   Note 3
     Over Claimed Me   mber’sHe alth
      Benefits                                                 843   Note 4
                 Total Questioned Costs                $     1,078
  Questioned Match Costs                               $        41   Note 3

Notes
1. According to budget schedules for the AmeriCorps grants, the Town of Okeene’stotal
   approved Federal-funded budget is $512,711 under the award 03AFHOK002 ($230,111 in
   Program Year 2003-2004 and $282,600 in Program Year 2004-2005).

                                         sr
2. Claimed costs represent Town of Okeene’ e
                                           por
                                             tede
                                                xpe
                                                  ndi
                                                    tur
                                                      esf
                                                        orthe period September 1,
   2003, through September 30, 2005.

3. Based on our review of members’living allowances for the entire universe in Program Year
   2003-2004, we noted one individual who made a commitment to join the AmeriCorps
   program but was never enrolled. Nonetheless, living allowances were paid to the individual
   and claimed as Corporation funds since the individual had contributed 31.5 service hours
   prior to leaving the program. Therefore, we have questioned the related living allowances
   and fringe benefits which totaled $276, of which $235 was claimed to Federal share and $41
   tos ubg r
           a ntee’sma tch(see Compliance Finding No. 1).

4. Health care benefits were paid to a less than full-time member using Corporation funds in
   Program Year 2003-2004. The subgrantee had enrolled the member as a half-time member
   with the understanding that the member would be serving in a full-time capacity for a
   sustained period of time. (see Compliance Finding No. 2).




                                             11
                                                                                 Schedule A-2
                                                                                   Page 1 of 2
                       Oklahoma Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                    Award Numbers 03AFHOK002 and 03ACHOK001
                        (AmeriCorps –Formula & Competitive)
                     September 1, 2003, through September 30, 2005

                                  Communities in Schools


                                                                            Reference
       Approved Budget (Federal Funds)                      $   455,164     Note 1
       Claimed Costs                                        $   430,702     Note 2
       Questioned Costs
          Living Allowances Exceeding the                   $        679    Note 3
            AmeriCorps Limits
          Member Benefits Over-claimed                            1,608     Note 4
                     Total Questioned Costs                 $     2,287
       Questioned Match Costs                               $     4,450     Note 5

Notes
1. According to budget schedules for the AmeriCorps grants, Communities in Schools’(CIS)
   total approved Federal-funded budget is $455,164 under the award 03AFHOK002 ($243,200
   in Program Year 2003-2004 and $211,964 in Program Year 2004-2005).

2. Cl ai
       me dc ostsreprese ntCI S’
                               sre
                                 por
                                   tede
                                      xpe
                                        ndi
                                          tur
                                            esf
                                              ort
                                                hepe
                                                   riodSeptember 1, 2003,
   through September 30, 2005.

3. During our Maximum Living Allowance testing on 44 members, we noted that one member's
   total living allowance claimed under Federal share exceeded 85 percent of the minimum
   living allowance. The living allowance and related payroll taxes are questioned as follows
   (see Compliance Finding No. 1):

                                    Living          Related      Total Federal
              Program Year         Allowance        FICA of       Questioned
               2004-2005           Questioned        7.65%          Costs

            Member A (MT)      $    631            $   48        $    679
            MT –Minimal Time (300 hours)




                                              12
                                                                                 Schedule A-2
                                                                                   Page 2 of 2

4. We noted an error overstating costs of $1,608 claimed to the Corporation for Program Year
   2004-2005 for member health care benefits. The subgrantee had overstated one extra
   member's health care costs compared to what was actually expended. The over-claimed
   amount was $134 per month for 12 months (see Compliance Finding No. 2).

5. A review of the subgrantee in-kind matching contribution indicated $4,450 of in-kind match
   that was not adequately supported by documentation to determine if the costs were allowable,
   allocable, and reasonable per the OMB Circulars. As a result, the in-kind matching
   contribution has been questioned (see Compliance Finding No. 4).




                                              13
                                                                                   Schedule A-3
                                                                                     Page 1 of 1
                      Oklahoma Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                    Award Numbers 03AFHOK002 and 03ACHOK001
                        (AmeriCorps –Formula & Competitive)
                      August 6, 2003, through September 30, 2005

                  Oklahoma State Services Council –American Red Cross


                                                                       Reference
  Approved Budget (Federal Funds)                       $   503,114    Note 1
  Claimed Costs                                         $   465,169    Note 2
  Questioned Costs
     Members Not Enrolled in WBRS                       $     1,045    Note 3
  Questioned Match Costs                                $       185    Note 3


Notes
1. According to budget schedules for the AmeriCorps grants, American Red Cross’total
   approved Federal-funded budget is $503,114 under the award 03ACHOK001 ($247,208 in
   Program Year 2003-2004 and $255,906 in Program Year 2004-2005).

2. Clai
      me  dc ost
               sr epres
                      entAme   r
                               icanRedCr
                                       oss
                                         ’re
                                           por
                                             tede
                                                xpe
                                                  ndi
                                                    tur
                                                      esf
                                                        ort
                                                          hepe
                                                             riodAug
                                                                   ust6,
   2003, through September 30, 2005.

3. Based on our review of members’living allowances for the entire universe in Program Year
   2003-2004, we noted one individual who made a commitment to join the AmeriCorps
   program but never actually enrolled. Nonetheless, living allowances were paid to the
   individual and claimed as Corporation funds since the member had contributed 220.50
   service hours prior to exiting the program. Therefore, we have questioned the related living
   allowances and fringe benefits which totaled $1,230, of which $1,045 was claimed to Federal
   share and $185 to the subg  ra
                                nt ee’sma tchcost
                                                s(see Compliance Finding No. 1).




                                              14
                                                                                  Schedule A-4
                                                                                    Page 1 of 1
                      Oklahoma Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                    Award Numbers 03AFHOK002 and 03ACHOK001
                        (AmeriCorps –Formula & Competitive)
                      August 6, 2003, through September 30, 2005

                                 United Way of Ponca City


                                                                      Reference
  Approved Budget (Federal Funds)                      $   750,795    Note 1
  Claimed Costs                                        $   614,982    Note 2
  Questioned Costs
     Cost Incurred Outside Grant Period                $        83    Note 3
     Depreciation Expenses                                     210    Note 4
                 Total Questioned Costs                $       293
  Questioned Match Costs
     Cost Incurred Outside Grant Period                $        83    Note 3
     Depreciation Expenses                                     208    Note 4
          Total Questioned Match Costs                 $       291

Notes
                                                                                    s
1. According to budget schedules for the AmeriCorps grants, United Way of Ponca City’
   (United Way) total approved Federal-funded budget is $750,795 under the award
   03ACHOK001 ($367,152 in Program Year 2003-2004 and $383,643 in Program Year 2004-
   2005).

                                     sr
2. Claimed costs represent United Way’ e
                                       por
                                         tede
                                            xpe
                                              ndi
                                                tur
                                                  esf
                                                    ort
                                                      hepe
                                                         riodAug
                                                               ust6,2003,
   through September 30, 2005.

3. Based on our testing of other direct operating costs, we noted $166 ($83 Federal share and
   $83s ub g
           rant
              e e’sma  t
                       ch)c laime dt ot hegrantf orut i
                                                      lityexpens eswhich were incurred in July
   and August of 2003 which was not within the grant award period (see Compliance Finding
   No. 2).

4. Depreciation expense of $418 ($210 Federal share and $208 s   ubg r
                                                                     antee’smatch costs) was
   claimed in Program Year 2003-2004. However, the equipment being depreciated was
   already claimed as Federal share when originally purchased (see Compliance Finding No. 2).




                                             15
        EXHIBIT B

SCHEDULE OF AWARD COSTS:
 ADMINISTRATIVE GRANTS
                                                                                       Exhibit B
                                                                                      Page 1 of 1
                        Oklahoma Community Service Commission
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                              Award Number 04CAHOK001
                                  (Administrative Grants)
                        January 1, 2004, through December 31, 2005


                                                                         Reference
  Approved Budget (Federal Funds)                         $   456,933    Note 1
  Claimed Costs                                           $   381,959    Note 2
  Questioned Match Costs                                  $   286,522    Note 3

Notes
                                                                              stotal
1. According to budget schedules for the Administrative grants, the Commission’
   approved Federal-funded budget is $456,933 under the award 04CAHOK001.

2. Clai
      me  dc ostsrepre
                     sentt heCommi  s
                                    sion’
                                        sre
                                          por
                                            tede
                                               xpe
                                                 ndi
                                                   tur
                                                     esf
                                                       ort
                                                         hepe
                                                            riodJ
                                                                anua
                                                                   ry1,
   2004, through December 31, 2005.

3. During our testing of all grant match provided by the Commission, we noted a majority of
   match was related to news stories and public service announcements broadcast through
   various local radio stations and local newspapers. The purported value of this media was
   used by the Commission as an in-kind contribution to match its Administrative grant. The
   costs were planned for as Advertising and Promotion expense in the budget; however, based
   on our review of the supporting documentation, we noted that a majority of these in-kind
   contributions were inadequately documented to determine if they were (1) allowable and
   allocable, (2) related to the Corporation's programs (such as AmeriCorps, Learn & Serve,
   etc.), (3) the base values of the contributions were reasonable and allowable, and (4) the news
   stories, articles, or public service announcements were requested by the Commission to
   promote and support its programs (see Compliance Finding No. 4).




                                               16
                   EXHIBIT C

            SCHEDULE OF AWARD COSTS:
LEARN AND SERVE AMERICA COMMUNITY-BASED GRANTS
                                                                            Exhibit C
                Oklahoma Community Service Commission
                        Schedule of Award Costs
             Corporation for National and Community Service
                     Award Number 03KCHOK001
           (Learn and Serve America Community-Based Grants)
               October 1, 2003, through December 31, 2005


                                                   Questioned
Audit of Learn & Serve Program         Claimed      Claimed
   (Grants 03KCHOK001)                  Costs        Costs      Reference

Oklahoma Community Service
  Commission                       $      80,130            -

Subgrantees
Camp Fire of Oklahoma Council             55,722            -
Communities in Schools *                  65,961            - Schedule C-1
Great Plains Youth & Family
  Service                                 81,007            -
Oklahoma 4-H Foundation                   59,831            -
Oklahoma State University                 12,465
YMCA of Greater Tulsa                     32,313            - Schedule C-2

                           Total $       387,429            -

* Subgrantee selected for detailed testing.




                                        17
                                                                                 Schedule C-1
                                                                                   Page 1 of 1
                       Oklahoma Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                            Award Number 03KCHOK001
                  (Learn and Serve America Community-Based Grants)
                      January 1, 2004, through December 31, 2005

                                  Communities in Schools


                                                                     Reference
  Approved Budget (Federal Funds)                      $    80,000   Note 1
  Claimed Costs                                        $    65,961   Note 2
  Questioned Match Costs                               $    37,860   Note 3

Notes
1. According to budget schedules for the Learn & Serve America grants, Communities in
   Schools’(CIS) total approved Federal-funded budget is $80,000 under the award
   03KCHOK001 ($40,000 in Program Year 2003-2004 and $40,000 in Program Year 2004-
   2005).

                              sr
2. Claimed costs represent CIS’ e
                                por
                                  tede
                                     xpe
                                       ndi
                                         tur
                                           esf
                                             ort
                                               hepe
                                                  riodJanuary 1, 2004, through
   December 31, 2005.

3. A review of the subgrantee in-kind matching contribution indicated that $37,860 of in-kind
   match was not adequately supported by documentation to determine if the costs were
   allowable, allocable, and reasonable per the OMB Circulars. As a result, the in-kind
   matching contribution has been questioned (see Compliance Finding No. 4).




                                             18
                                                                                Schedule C-2
                                                                                  Page 1 of 1
                       Oklahoma Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                            Award Number 03KCHOK001
                  (Learn and Serve America Community-Based Grants)
                      January 1, 2004, through December 31, 2005

                                 YMCA of Greater Tulsa


                                                                    Reference
  Approved Budget (Federal Funds)                     $    80,000   Note 1
  Claimed Costs                                       $    32,313   Note 2
  Questioned Match Costs                              $    43,337   Note 3

Notes
1. According to budget schedules for the Learn & Serve America grants, YMCA of Greater
   Tulsa’s(YMCA) total approved Federal-funded budget is $80,000 under the award
   03KCHOK001 ($40,000 in Program Year 2003-2004 and $40,000 in Program Year 2004-
   2005).

2. Cl ai
       me dc ost
               sreprese ntYMCA’
                              sre
                                por
                                  tede
                                     xpe
                                       ndi
                                         tur
                                           esf
                                             ort
                                               hepe
                                                  riodJ
                                                      anua
                                                         ry1,2004,
   through December 31, 2005.

3. A review of the subgrantee program match costs indicated that $43,337 of match costs were
   not adequately supported by documentation to determine if the costs were allowable,
   allocable, and reasonable per the OMB Circulars. As a result, the match costs have been
   questioned (see Compliance Finding No. 4).




                                            19
              2 3 0 1 Dupont Drive, Suite 2 0 0
              Irvine, California 92612
              949-474-2020 ph
              949-263-5520 fx
              www.mhm-mcom




Office of Inspector General
Corporation for National and Community Service

      REPORT ON COMPLIANCE AND OTHER MATTERS AND ON INTERNAL
       CONTROLS OVER FINANCIAL REPORTING BASED ON AN AUDIT OF
         FINANCIAL SCHEDULES PERFORMED IN ACCORDANCE WITH
                   GOVERNMENT AUDITING STANDARDS

We have audited the Schedules of Award Costs, as presented in Exhibits A through C, that
summarize the claimed costs of the Commission under the Corporation awards listed below, and
have issued our report thereon, dated April 7,2006.

            Program                   Award Number      Award Period           Audit Period
 AmeriCorps - Formula                 03AFHOK002     09/01/03 - 0813 1/06   09/01/03 - 09/30/05
 AmeriCorps - Competitive             03ACHOK001     08/06/03 - 08/05/06    08/06/03 - 09/30/05
 Administrative                       04CAHOK001     01/01/04-12/31/06      01/01/04-12/31/05
 Disability                           04CDHOK001     01/01/04-12/31/06      01/01/04-12/31/05
 Learn & Serve America                03KCHOK001     10/01/03 - 09/30/06    10/01/03 - 12131/05
 PDAT                                 05PTHOK001     O1/01/05-12/31/06      01/01/05-12/31/05

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

                                    Compliance and Other Matters

Compliance with laws, regulations, and the provisions of the awards is the responsibility of
Commission management. As part of obtaining reasonable assurance about whether the
financial schedules are free of material misstatement, we performed tests of compliance with
certain provisions of laws, regulations, and the terms and conditions of the awards,
noncompliance with which could have a direct and material effect on the determination of the
amounts on the financial schedules. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed instances of noncompliance or other matters that are required to
be reported under Government Auditing Standards and which are described in the Compliance
Findings section of this report. Instances of noncompliance include non-adherence to
requirements, or violations of prohibitions contained in statutes, regulations, and award
provisions.
Compliance Findings

The results of our tests of compliance disclosed the following instances of noncompliance:

Finding No. 1 –Over Claimed and Unallowable Members’Living Allowances

(A) Living Allowances Claimed Exceeding the AmeriCorps Limit
The Commission did not have adequate procedures in place to monitor a s    ubgr antee’sl i
                                                                                         ving
allowances paid to the AmeriCorps members. During our review of 44 members            ’living
allowances at one AmeriCorps subgrantee, Communities in School, we noted one member who
was paid living allowances and the amount claimed as the Federal share exceeded 85 percent of
the minimum living allowance. Living allowances and related payroll benefits questioned are as
follows: (Also see Schedule A-2, Note 3).

                                  Living               Related      Total Federal
              Program Year      Allowance              FICA of       Questioned
               2004-2005        Questioned              7.65%          Costs
            Member A (MT)         $ 631                 $ 48           $ 679
            MT –Minimal Time (300 hours)

(B) Non-Member Paid Living Allowances
Based on our review of living allowances for the entire universe of members in program year
2003–2004 at two AmeriCorps subgrantees, Town of Okeene and American Red Cross, we
noted one individual from each subgrantee who had a commitment to join AmeriCorps but never
actually enrolled in the program. Nonetheless, living allowances were paid to the individuals
and claimed as Federal share since the individuals had contributed minimal service hours prior to
leaving the program.

                          Questioned         Questioned
    Subgrantee           Federal Share       Match Costs
Town of Okeene            $   235              $ 41           (Also see Schedule A-1, Note 3)
American Red Cross          1,045                185          (Also see Schedule A-3, Note 3)
              Total       $ 1,280              $ 226

AmeriCorps Provisions, B. Special Provisions, Number 11 –Living Allowances, Other In-Service
Benefits and Taxes, states:

     a. Living allowances. The Corporation will only fund up to 85 percent of the minimum
     living allowance. A minimum of 15 percent must be matched by non-Federal sources. A
     program that wants to provide a living allowance in excess of the stated minimum must
     provide a Grantee match for all funds over 85 percent of that stated amount. If the program
     is permitted to provide a living allowance that is less than the stated minimum, the
     Corporation will only fund 85 percent of the actual amount.




                                               21
Americorps Provisions, Section B –Special Provisions, Number 8 –Terms of Service, c. Notice
t
otheCor  porati
              on’ sNat  i
                        onalSe r vi
                                  ceTr  ust, states:
    TheGr   ant
              eemus   tnot ifyt heCor  por ation’ sNa ti
                                                       ona
                                                         lSe  rviceTr  ustwi  thi
                                                                                n30da    ysupon
    entering into ac   ommi  t
                             me  ntwi tha  ni   ndividua
                                                       ltos  erve ,ame   mbe  r’se nrollme ntin,
    completion of, lengthy or indefinite suspension from, or release from, a term of service.

Americorps Provisions, Section B –Special Provisions, Number 8 –Terms of Service, d. Member
Enrollment Procedures, states:
     iii. Member Commitment: Within 30 calendar days of entering into a commitment with an
     individual, the grantee or subgrantee will notify the Corporation of the commitment via
     WBRS.
     iv. Member Enrollment: Within 30 cale    ndarda  ysoft heme  mbe  r
                                                                       ’ss tarti
                                                                               ngs  ervi
                                                                                       ce,t
                                                                                          he
     program must complete and approve the enrollment form in WBRS.
     v. If a commitment does not result in a member actually being enrolled, the program must
     cancel the commitment in WBRS within 30 calendar days oft     heme  mbe  r
                                                                              ’se xpec t
                                                                                       edst
                                                                                          art
     date.

For condition (A) referenced above, the Commission did not properly monitor its subgrantees to
ensure they had proper policies and procedures in place to control the living allowances paid to
members. The subgrantee was expecting the members to serve in the subsequent term after the
end of the first program term, and therefore, continued to make two more living allowance
payments to the members after they had exited the program. However, the members did not
fulfill their commitment, resulting in an overpayment of living allowances.

For condition (B), the subgrantee did not enter the member enrollment data and hours served into
the WBRS database as it was not able to access WBRS for approximately 29 days. During that
period of time, the member exited the program and a replacement member was enrolled that
fulfi
    ll
     e dthes ubg ra nt
                     e e’stota
                             la ll
                                 ot me ntofme   mbe rs
                                                     . Ass  uch,thes ubg ranteedidnote  ntert he
departing member into WBRS as there was no remaining space available under the terms of its
AmeriCorps budget. Not entering the members in WBRS limits the Corporation from properly
monitoring AmeriCorps activities, and may result in the Corporation using funds to pay living
allowances for members who are not properly enrolled.

Recommendation
1A. We recommend that the Corporation instruct the Commission to develop and implement
     adequate controls and procedures to ensure its subgrantees properly monitor and review
     living allowances paid to the AmeriCorps members to ensure they are reasonable,
     allowable, allocable, and in compliance with the AmeriCorps provisions.
1B. We also recommend that the Corporation determine the allowability of the costs
     questioned and recoup costs from subgrantees that are not allowable and allocable to the
     grants.

          sRe
Commission’   sponse
(A)  Living Allowances Claimed Exceeding the AmeriCorps Limit
     The Commission conducts a financial and programmatic monitoring site visit for each


                                              22
       program when payroll and living allowance figures are examined. During the 2004-2005
       Program Year, Communities in Schools overpaid a 300 hour minimum time member by
       $679 by failing to complete the exit documentation in a timely manner. This
       overpayment was not included in the sampling of financial documents reviewed by the
       Commission staff.

       The Commission agrees that Communities in Schools should repay these funds and this
       adjustment will be reflected on the next Financial Status Report (FSR) for the period
       ending September 30, 2006. Procedures will be developed for properly ensuring the
       reconciliation of living allowance expenses to enrollment reports.

(B)    Member not recorded in WBRS
       During the 2003-2004 program year, two subgrantees, Town of Okeene and American
       Red Cross each paid members who were not enrolled in the Web-Based Reporting
       System (WBRS). Both of these programs started on September 1, 2003, but their
       Grantee Information Profiles (GIP) were not uploaded into WBRS by the Corporation
       until October 11, 2003 and September 29, 2003, respectively. It was impossible to enroll
       members into WBRS without the GIP in place. Each program had a member who began
       the term of service on September 1, 2003, but ended the term of service before their
       information could be entered into WBRS.

       The Commission believes that these two errors were a result of the delay in uploading the
       Grantee Information Profiles into WBRS and the new rule going into effect for the first
       time that prohibited refilling positions. There have not been repeated occurrences of this
       issue.

The Commission agrees that the subgrantees should repay the questioned costs, and these
adjustments will be reflected on their next Financial Status Report (FSR) for the period ending
September 30, 2006, and prior to closeout of this current three-year award.


Audi tor’
        sComme   nt
Wer   ec
       og ni
           z ea ndc onc urwi  ththeCommi    ssion’
                                                 sr es pons et ode ve l
                                                                      oppr  ocedur estoreconci l
                                                                                               e
living allowances to enrollment reports. However, the Commission should also develop
procedures to ensure living allowances are claimed for eligible and properly enrolled members.

Ina ddi
      tion,wer   ecogni zet heCor pora t
                                       ion’ s response (see Appendix B of this report) regarding
the eGrants and WBRS interface problem, and recommend that the Commission work with the
Corporation to resolve the questioned costs.




                                              23
Finding No. 2 –Program Costs Claimed Not In Accordance With the AmeriCorps
Provisions and Applicable Cost Principles

(A) Over Claimed Member Health Care Benefits
Health care benefits were paid to a less than full-time member using Federal share in Program
Year 2003-2004 by one AmeriCorps subgrantee, Town of Okeene. The subgrantee had enrolled
the member as a half-time member with the understanding that the member would be serving in a
full-time capacity for the remaining period of time. However, the member never performed at
full-time capacity. In addition, we noted an error that overstated member health care costs by
$1,608 claimed as Federal share in Program Year 2004-2005. The subgrantee had overstated one
extra member's health care costs compared to what was actually expended. The over-claimed
amount was $134 per month for 12 months. As a result, health benefits claimed to the program
have been questioned as follows:

                                       Questioned
             Subgrantee               Federal Share
      Town of Okeene                   $ 843           (Also see Schedule A-1, Note 4)
      Communities in Schools             1,608         (Also see Schedule A-2, Note 4)
                           Total       $ 2,451

(B) Costs Incurred Not Within Grant Period
Based on our sample of expenditures tested for an AmeriCorps subgrantee, United Way of Ponca
City, we noted $166 ($83 Federal share and $83s    ubgr antee’
                                                             sma  t
                                                                  c h)clai
                                                                         me dt ot heg  rantf or
utility expenses which were incurred in July and August of 2003, which was not within the grant
award period (Also see Schedule A-4, Note 3).

(C) Unallowable Depreciation Expenses
During our testing of expenditures for United Way of Ponca City, we noted depreciation expense
of $418 ($210 Federal share and $208 s  ubg r
                                            ante
                                               e’smatch costs) claimed in Program Year 2003-
2004. However, the equipment being depreciated was already claimed as Federal share when
originally purchased (Also see Schedule A-4, Note 4).

Americorps Provisions, Section B –Special Provisions, Number 11(e) Health Care Coverage,
states:
      The Corporation will not cover health care costs for family members or for less than full-
      time members. Half-time members who are serving in a full-time capacity for a sustained
      period of time may be eligible for health care benefits supported with Corporation funds,
      although that coverage must be approved in the Grant.

OMB Circular A-110 Subpart C # 28, states:
    Where a funding period is specified, a recipient may charge to the grant only allowable
    costs resulting from obligations incurred during the funding period and any pre-award costs
    authorized by the Federal awarding agency.




                                              24
OMB Circular 122 –Attachment B- 11 part c, states:
    c. The computation of use allowances or depreciation will exclude:
             (2) Any portion of the cost of buildings and equipment borne by or donated by the
             Federal Government irrespective of where title was originally vested or where it
             presentlyresides…

The Commission did not ensure that its subgrantees maintained adequate systems to keep track
of program costs claimed and matched to the programs. In addition, the subgrantee was
unfamiliar with the AmeriCorps provisions and the applicable cost principles. As a result, costs
claimed and matched to the program are questioned.

Recommendation
2A. We recommend that the Corporation instruct the Commission to develop and implement
     adequate controls and procedures to ensure its subgrantees properly monitor and review
     costs claimed and matched to the AmeriCorps program to ensure they are reasonable,
     allowable, allocable, and in compliance with the AmeriCorps provisions and the
     applicable cost principles.
2B. We also recommend that the Corporation determine the allowability of the costs
     questioned and recoup costs from subgrantees that are not allowable and allocable to the
     grants.

Commission’sRe  sponse
(A)  Over-claimed Member Health Care Benefits
     The Town of Okeene requested permission from the Corporation to pay health care
     benefits for a part-time member serving in a full-time capacity in Program Year 2003-
     2004. This request was approved by the Corporation; however the program director
     failed to ensure that the member served consistently on a full-time basis.

       The Commission agrees that the Town of Okeene should repay $843 and Communities in
       Schools should repay $1,608 for excess health care expenditures. These adjustments will
       be reflected on their next financial status report (FSR) for the period ending
       September30, 2006, and prior to closeout of the current three-year award.

(B)    Cost Incurred Not Within Grant Period
       The United Way of Ponca City claimed a total of $166 for July and August, 2003 utility
       expenses to the program year that actually began on September 1, 2003, under the new
       grant number 03ACHOK001. These costs should have been charged to the AmeriCorps
       grant 00ASCOK037 that ended August 31, 2003, and has been closed. We need
       direction on the action required to resolve this finding.

(C)    Unallowable Depreciation Expenses
       The United Way of Ponca City claimed depreciation expense of $418 ($210 Federal
       Share, $208 subgrantee match). Their books were adjusted at the instruction of an
       outside accounting firm when the expense of the equipment was deducted from the




                                              25
       Periodic Expense Report, and the depreciation expense was added. The depreciation
       expense has been corrected and is reflected on the FSR dated March 31, 2006.


Audi tor’
        sComme   nt
We acknowledge the Commission has taken responsibility for the findings. However, the
Commission needs to develop policies and procedures to ensure future program costs claimed
are in accordance with AmeriCorps provisions and applicable cost principles. We also
recommend that the Commission work with the Corporation to determine the best methodology
to recoup the questioned costs, particularly the utility costs claimed for the grant award.



Finding No. 3: –Late Submission of Required Program Documents

The Commission did not ensure that it and its subgrantees submitted required reports in a timely
manner. We found numerous instances where both the Commission and its subgrantees had not
submitting documents within established time frames. Among the late reports were Financial
Status and Progress Reports, Member Enrollment Forms, Member Change of Status Forms, and
Member Exit Forms. The following summarizes the instances of noted late submissions:

                                                                             Late
                                                                          Enrollment,
                                          Total                  Late      Change,
                                        Members      Late      Progress   and/or Exit
           Commission & Subgrantees      Enrolled    FSR       Reports      Forms
         Commission (1)                     -          6            -          -
         Town of Okeene (2)                63          2            -          7
         Communities in School (2)         87          5            2         21
         United Way of Ponca City (2)      78          1            -         21
         American Red Cross (2)            40          -            -         12
       (1) –Related to AmeriCorps, PDAT, and Administrative Grants.
       (2) –Related to AmeriCorps program only.


AmeriCorps Provisions, B. Special Provisions, Number 16, Reporting Requirements, states:
    a. Financial Status and Progress Reports. . . . Grantees are required to review, analyze,
    and follow up on progress reports it receives from AmeriCorps subgrantees or
    ope rati
           ngs  ites… TheCor    poratione xpe ct se achGr  anteet os  etitsownSubg     rantee
    reporting requirements. Grantees are responsible for monitoring Subgrantee activities
    and training needs, tracking progress toward objectives, and identifying challenges.
    Subgrantees must adhere to the reporting requirements outlined and communicated by
    its Grantees for the program year.

       *      *       *




                                              26
     i. Financial Status Reports. Financial Status Reports will be due April 30 for the period
     ending March 31 and October 31 for the period ending September 30.

       *      *       *

     ii. Progress Reports.

     b. AmeriCorps Member-Related Forms. The Grantee is required to submit the
     following documents to the National Service Trust at the Corporation on forms
     provided by the Corporation. Grantees and subgrantees may use WBRS to submit
     these forms electronically. Programs using WBRS must also maintain hard copies of
     the forms:

     i. Enrollment Forms. Enrollment forms must be submitted no later than 30 days
     after a member is enrolled.

     ii. Change of Status Forms. Member Change of Status Forms must be submitted no
     la tert
           han30da   ysa ft
                          erame  mbe
                                   r’sst
                                       atusischa nge d.

     iii. Exit/End-of-Term-of-Service Forms. Exit/End-of-Term-of-Service Forms must be
     submitted no later than 30 days after a member exits the program or finishes his/her term of
     service.

PDAT and Administrative Grants Provisions, Section B - Special Provisions, Number 5 -
Reporting Requirements, a. Financial Status Reports, states:
     The grantee shall submit semi-annual cumulative financial status reports summarizing
     expenditures during the reporting period using eGrants
              Financial Status Report deadlines are:

              Due Date               Reporting Period Covered
              July 31                Start of grant through June 30
              January 31             July 1 –December 31

TheCommi      s
              sion’ss ys t
                         e mf orsubmitting Financial Status Reports faltered during the early
transition from WBRS to eGrants. Commission staff was unclear about the transition procedure
and did not submit the FSRs on time. In addition, the subgrantees experienced difficulties in
entering member information into WBRS since the Corporation had delayed its uploading of the
Grantee Information Profile into WBRS. As such, the WBRS system was not available for
submission of enrollment forms for an approximately 30-day period past the due date. By not
submitting the documents within the established time frames, the Commission cannot properly
review,t ra ck,andmoni  torthes ubg
                                  rantee’sa ct
                                             ivi
                                               tiesa nd objectives of the AmeriCorps program.
Timely submission of reports would assist the Commission to properly monitor and correct any
errors and/or deficiencies noted.




                                               27
Recommendation

3.     We recommend that the Corporation instruct the Commission to develop adequate
       procedures and to train and monitor its own staff and subgrantees, as necessary, to ensure
       all required documents are submitted in a timely manner.

Commission’  sRe  sponse
The Commission has reviewed with program directors the requirement to submit within 30 days
into WBRS the enrollment, change of status and exit forms. Some of the forms were late
because the Corporation had not uploaded the Grantee Information Profile into WBRS at a time
appropriate to enroll members during the 30-day period. Another was late due to human error.

At the beginning of each program year, programs are given the dates that Financial Status
Reports and Progress Reports are due to the Commission. The Commission staff will remind the
programs prior to the due date so that all required documents are reported in a timely manner.

FSRswe  res ubmi tt
                  edl atet otheCommi    s si
                                           onbysubg rantee
                                                         s .TheCor    poration’sdueda  teswe  re
missed during the same period of time that FSR reporting was first transitioning from WBRS
into eGrants. This is not a common practice and should not occur. Procedures have been
reviewed and are in place to ensure that the Commission will meet all reporting deadlines in the
future.


Auditor’sComme     nt
We a cknowl   edg ea ndc onc urwi  t
                                   ht h eCommi    ssi on’
                                                        sre
                                                          sponse to develop new procedures to
ensure all reporting deadlines are met in the future.


Finding No. 4: –Unallowable and Unallocable Match Costs
During the audit we noted some match costs that were either unsupported or inadequately
supported with source documentation. As a result, we have questioned match costs as follows:

         Commission and                                  Questioned
            Subgrantee                  Program          Match Costs           Note
      Commission                     Administrative      $ 286,522             (A)
      Communities in School          AmeriCorps              4,450             (B)
      Communities in School          Learn & Serve          37,860             (B)
      YMCA of Greater Tulsa          Learn & Serve          43,337             (C)
                           Total                         $ 372,169


     (A) Commission
          During our testing of all grant match provided by the Commission, we noted a
          majority of grant match was related to news stories and public service
          announcements broadcast through various local radio stations and local newspapers.


                                               28
          The purported value of this media was used by the Commission as in-kind
          contributions to match the Administrative grant. Documentation provided to support
          the costs included newspaper clippings and/or summary charges from local radio
          stations. However, based on our review, we noted that, in some cases, the newspaper
          clippings did not specifically promoting AmeriCorps, but featured a pe          rson’s
          community involvement, which included AmeriCorps. Also there was no additional
          detail breakdown or source documentation to support the charges provided by the
          local radio stations. As such, we were unable determine if (1) the costs were
          allowable and allocable, (2) costs were related to the Corporation's programs (such as
          AmeriCorps, Learn & Serve America, etc.), (3) the base values of the contributions
          were reasonable and allowable, and (4) the news stories, articles, or public service
          announcements were requested by the Commission to promote and support its
          programs (Also see Exhibit B, Note 3).

     (B) Communities in Schools
          A review of the subgrantee in-kind matching contribution indicated that $4,450 of in-
          kind match to the AmeriCorps program and $37,860 of in-kind match to the Learn &
          Serve America program was not adequately supported with source documentation to
          determine if the costs were allowable, allocable, and reasonable per the OMB
          Circulars. The only documentation provided as support was a spreadsheet indicating
          the estimated amount of match costs to be provided. As a result, the in-kind
          matching contributions have been questioned (Also see Schedule A-2, Note 5 and
          Schedule C-1, Note 3).

     (C) YMCA of Greater Tulsa
          A review of the subgrantee program match costs indicated that $43,337 of match
          costs were not adequately supported with source documentation to determine if the
          costs were allowable, allocable, and reasonable per OMB Circulars. Specifically, the
          subgrantee was unable to provide actual match costs to the Commission prior to its
          submission of FSRs to the Corporation. Therefore, the Commission estimated the
          subgrant e
                   e’sma  t
                          chingc   ost
                                     sba s edonverbal conversations with the subgrantee. The
          estimated amounts were reported in the FSRs to the Corporation without any follow-
          up adjustments to reflect the actual match costs incurred. No additional source
          documentation to support the actual match was provided (Also see Schedule C-2,
          Note 3).

Administrative Grant Provisions, Section C - General Provisions, Number 12 (and Learn and
Serve America General Grants Provisions, Section B, General Provisions, Number 8) - Financial
Management Provisions, states:

      a. General. The Grantee must maintain financial management systems that include
      standard accounting practices, sufficient internal controls, a clear audit trail and
      written cost allocation procedures as necessary. Financial management systems
      must be capable of distinguishing expenditures attributable to this Grant from
      expenditures not attributable to this Grant.



                                              29
      b. Source documentation. The Grantee must maintain adequate supporting
      documents for its expenditures (Federal and non-Federal) and in-kind contributions
      made under this Grant. Costs must be shown in books or records [e.g., a
      disbursement ledger or journal], and must be supported by a source document, such
      as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

Code of Federal Regulations 2543.23, h, states:
     (5) The following requirements pertain to the recipient's supporting records for in-kind
     contributions from third parties.
     I. Volunteer services shall be documented and, to the extent feasible, supported by the
     same methods used by the recipient for its own employees.
     II. The basis for determining the valuation for personal service, material, equipment,
     buildings and land shall be documented.

For condition (A) referenced above, the Commission had a different interpretation of the cost
principles in regard to in-kind match contributions defined in the CFR. The Commission
believed that any news articles or public service announcements that are related to the
Corporation programs can be used as in-kind contribution, even if they are not at the
Commission’  srequest.

For condition (B), the Commission lacked procedures to ensure that its subgrantees maintained
proper supporting documentation for match costs claimed to the grants. Furthermore, the
subgrantees did not have an adequate system of retaining records to support match costs claimed.

For condition (C), the Commission reported match costs based on an estimated amount, and
adjustments to reflect actual incurred costs were not made.

As a result, funds used as match costs have been questioned as unallowable. In addition,
matching costs claimed are not in compliance with CFR requirements and applicable grant
provisions.

Recommendations

4A.    We recommend that the Corporation determine the allowability of the match costs
       questioned and calculate the effect of the disallowed costs on the reimbursed Federal
       share.

4B.    Because Commission staff is not fully aware of the applicable cost principles with respect
       to the requirements for match costs, we also recommend that the Corporation instruct the
       Commission and its subgrantees to review the applicable regulations and develop policies
       and procedures to ensure claimed match costs are allowable, adequately documented, and
       allocable in accordance with applicable cost principles and regulations.




                                              30
Commission’sRe spons e
(A)  Commission –Administrative Match $286,522
     The Commission utilized the commercial equivalency of publications and broadcasts
     generated by requests from the Commission and its programs as Administrative Match.
     The print media is documented by press releases and e-mail requests to local newspapers.
     There are several instances that news stories and the value of the commercial benefit is
     presented, but there may be no evidence of the request when the publicity was generated
     by personal or telephone contact with local media. Public service announcements are
     documented by letters requesting air time and a list of the stations and number of
     broadcasts actually aired during a certain period. Without specific guidance from the
     Corporation to the contrary, the Commission believes that the documentation previously
     obtained from third parties is sufficient evidence to support the amount of matching funds
     recorded by the Commission.

(B)    Communities in Schools –AmeriCorps Match $4,450
       Commission staff was aware of the two line items in question and had determined that
       the evaluation needed additional documentation and the training match was not
       allowable. Other sources of match were to be used for training, but the follow-up to the
       monitoring of this issue was not completed. The subgrantee had other sources of match
       that are more easily documented and that should be used, and these adjustments will be
       made in the PER and FSR for the period ending September, 30, 2006. This subgrantee is
       in the process of implementing a new accounting system that more accurately aligns with
       national service budget line items for the preparation of financial statements.

       Communities in Schools Learn & Serve Match - $37,860
       The subgrantee needs to utilize different sources of match in order to more easily
       document the match for the Learn and Serve program. The new accounting system,
       along with utilization of different sources of match, will eliminate the questions
       surrounding the documentation of this match.

(C)    YMCA of Greater Tulsa Learn & Serve Match - $43,337
       Match costs for one subgrantee were recorded for the period in which they occurred
       rather than the date that the expenditure occurred, and policies and procedures have been
       put in place to eliminate this occurrence in the future.


Audi tor
       ’sComme   nt
(A) We acknowledge that print media was provided as documentation. However, some of the
print media provided consisted of news stories that promoted the achievements of a person who
happened to be an AmeriCorps member, and did not not specifically promote the AmeriCorps
program. We also acknowledge reviewing t    heCommi    ssi on’
                                                             sair time listing of public service
announcements. However, there was no additional documentation to support the dollar value
determined as match. As such, questioned costs remain as stated. We recommend the
Commission work with the Corporation to determine the allowability of the costs and develop
procedures to properly document match costs in the future.



                                              31
Finding No. 5: –Administrative Cost Percentage Exceeded Maximum Allowable
Based on our testing of one Learn & Serve America subgrantee, Communities in Schools,
administrative costs claimed to the Corporation exceeded the prescribed limit of 5 percent of
total Corporation costs. The percentage of administrative cost category claimed to the
Corporation was 5.45 percent. The percentage is calculated as follows:

         Total Administrative Costs Claimed:          3,662 divided by
         Total Audited Corporation Expenditures      67,184 equals
                                                       5.45 percent

Learn & Serve America General Grant Provisions, Section B - General Provisions, Number 9 -
Administrative Costs, states:
   b. Limitation by Statute. Administrative costs cannot exceed 5 percent of total
   Corporation funds actually expended under this award.

     c. Fixed 5 percent. If approved on a case-by-case basis by the Corporation, the grantee may
     charge, for administrative costs, a fixed 5 percent of the total of the Corporation funds
     expended. In order to charge this fixed 5 percent, the grantee match for administrative costs
     may not exceed 10 percent of all direct cost expenditures. These rates may be used without
     supporting documentation and are in lieu of an indirect cost rate.

The Commission did not ensure that its subgrantees were in compliance with the Learn & Serve
America requirements with respect to administrative costs claimed. In addition, the subgrantee
did not have a policy in place to review and ensure administrative costs claimed were in
compliance with Learn & Serve provisions. As a result, the subgrantee erroneously over-
claimed administrative costs in excess of 5 percent on several claims submitted to the
Commission in Program Year 2004-2005. In addition, no personnel reviewed the claimed costs
before submission to the Commission. Excess costs claimed to the administrative cost category
at the subgrantee level may affect the overall computation of the allowable costs claimed at the
grantee level. causing noncompliance with program provisions.

Recommendation

5.       We recommend that the Corporation instruct the Commission to train and monitor its
         subgrantees to properly develop and implement adequate procedures to ensure
         administrative costs claimed are within the prescribed limit of five percent of the total
         Corporation costs.

Commission’   sRe spons e
Of the total funds of $387,429 expended in the Learn and Serve America grant, less than one
percent was claimed in Administrative costs during the two-year period under review.
Additionally, the subgrantee would not be allowed to exceed their individual budget for any line
item over a three-year life of the grant award.



                                                32
Audi t
     or’sComme   nt
We acknowledge that t   heCommi    ssio n’sLearn and Serve America programs spent a total of
$387,429. However, the finding was specific to the subgrantee, Communities in Schools. Our
scope and methodology was to apply AmeriCorps provisions at the subgrantee level. As such,
costs claimed as administrative costs by Communities in Schools exceeded five percent.
Therefore, we continue to recommend the Commission develop policies and procedures to
ensure administrative costs are within the prescribed limitation.




Internal Controls Over Financial Reporting

In planning and performing our audit of award costs as presented in Exhibits A through C for the
period August 6, 2003, to December 31, 2005, we considered the Commission’       sinternal controls
over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial schedules and not to provide an opinion on the internal
controls over financial reporting. However, we noted certain matters involving the internal
control over financial reporting and its operation that we consider to be reportable conditions.
Reportable conditions involve matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over financial reporting that, in our judgment,
could adversely affect the Commission’     sa bi l
                                                 ityt or  ecord,pr  ocess,s umma   rizea nd re port
financial data consistent with the assertions of management in the financial statements.
Compliance findings numbered 1 through 5, as set forth in the Compliance Section of this report,
are also considered to be material weaknesses. In addition, we noted the following reportable
conditions:


Finding No. 6 - The Commission Did Not Have Adequate Controls In Place to Safeguard
Federal Funds.

During our review of the Commission’        s cash disbursement, payroll disbursement, and
reimbursement cycles, we noted the following inadequate controls:
       AmeriCorps funds drawn from Department of Health and Human Services (DHHS)
         have not been reconciled to AmeriCorps expenditures reported through eGrants.
       The bank reconciliations are not reviewed and approved by a direct supervisor
         periodically, but rather on a sample basis only. In addition, there is no documentation
         to support that the bank reconciliations have been performed.
       An inventory of equipment purchased with Federal funds is not performed at least
         once every two years to verify the existence of the property.
       The Executive Di    rect
                               or ’stime s
                                         he etsare reviewed and approved by the Administrative
         Assistant instead of a direct supervisor, as required by the Commission's policies and
         procedures.



                                               33
       The Commission did not ensure that subgrantees had adequate segregation of duties.
        At United Way of Ponca City, we found that the Program Director performs the
        following incompatible duties within the cash disbursements cycle:
            a. Approves her own purchases.
            b. Posts transactions in the general ledger.
            c. Has access to blank checks.
            d. Has access to printed checks.
            e. Signs checks.

Code of Federal Regulations (CFR) Sec. 2541.20 (b)(3), states:
      Effective control and accountability must be maintained for all grant and subgrant cash,
      real and personal property, and other assets. Grantees and subgrantees must adequately
      safeguard all such property and must assure that it is used solely for authorized purposes.

Code of Federal Regulations Sec. 2543.34 Equipment, (f)(3), states:
      A physical inventory of equipment shall be taken and the results reconciled with the
      equipment records at least once every two years. Any differences between quantities
      determined by the physical inspection and those shown in the accounting records shall be
      investigated to determine the causes of the difference. The recipient shall, in connection
      with the inventory, verify the existence, current utilization, and continued need for the
      equipment.

AmeriCorps Provisions, Section C - General Provisions, Number 22 - Financial Management
Provisions, c. Time and Attendance Record, (i)(a), states:
       …s  alariesandwages charged directly to this Grant or charged to matching funds must be
       supported by signed time and attendance records for each individual employee regardless
       of position, and by documented payrolls approved by a responsible official of the
       Grantee...

The Commission’sInternal Policy and Procedure Manual, states:
      …Times  heetswi llbes  ubmi t
                                  tedbye  ache mploye ea  tthee
                                                              ndofe
                                                                  achpa
                                                                      ype
                                                                        rio
                                                                          dand
      a
      pprove dbythea  ppropriatesupe r
                                     visor…

    The Commission assumed that the funds drawn and the expenditures reported in eGrants
     would agree without additional reconciliation. The lack of a reconciliation between funds
     drawn and expenditures reported could result in grant funds being overdrawn as
     adjustments can be made to the Commission's accounting records after the funds have
     been drawn down from DHHS. As such, an overpayment situation may occur.
   
    Due to the limited number of personnel at the Commission, the Executive Director relied
     on the Administrative Assistant to prepare bank reconciliations, and believed that
     reviewing the bank reconciliations on a sample basis was sufficient. In addition, since
     bank reconciliations were prepared through the Commission's accounting system, the
     Executive Director was not aware that a confirmation for review of the bank
     reconciliation was necessary. Without periodic review, approval, and documentation of


                                               34
       the bank reconciliations, unauthorized use of Federal funds may go undetected and
       uncorrected.
      Due to the size of the Commission, its management believed that inventory verification of
       the equipment purchased was not necessary since missing equipment would be easily
       detected. However, without verification of the equipment, the Commission is unable to
       provide assurance that it is being properly safeguarded.
      Since the Commission’   sBoa   rdofCommi     t
                                                    teesc ouldnot verify the Executive Director's
       daily activities, the Commission believed the Administrative Assistant would be a more
       appropriate person to approve her time sheets. In addition, the Commission indicated the
       condition was not considered a finding on any previous audits of the Commission.
      The subgrantee was unaware of the weakness in its internal control over cash
       disbursements. There is no established segregation of duties safeguarding the use of
       funds because the person who verifies the use of the funds also has access to all
       documentation needed to initiate the use of funds. This lack of segregation would allow
       any unauthorized use of funds to go undetected

Recommendation

6.      We recommend that the Corporation instruct the Commission to develop and implement
        adequate controls and procedures to ensure:
               Grant funds drawn are reconciled to the expenditures reported in eGrants.
               Bank reconciliations are prepared periodically, properly approved, and
                  documented.
               Verification of equipment is conducted at least once every two years.
               The Commission follows its internal policy for timesheet authorization and
                  ensures a direct supervisor reviews and approves the time sheets of the
                  Executive Director.
               Subgrantees have a system of internal controls in place to ensure that an
                  adequate segregation of duties exists for the safeguarding of AmeriCorps
                  funds.

Commission’  sRe spons e
(A) - All funds drawn from the Division of Payment Management system are reimbursements of
the actual expenditures on the various grant awards. The information gathered to complete the
Financial Status Reports in eGrants and to complete the PSC 272 for the Division of Payment
Management is attached to the PSC 272 on a quarterly basis upon reconciliation of funds drawn
versus expenditures.

(B) - Accounting software shows the last dates of reconciliation of bank accounts and is viewed
byt hedirects upervisoronar  eg
                              ul arba sisa ndi na  ccor
                                                      da nc ewi tht heCommi  ssion’sPol  i
                                                                                         c yand
Procedure manual.

(C) - The Commission does maintain a cumulative list of fixed assets –with information
reflecting the date acquired, the date disposed, the serial number, and award number. The
Commi   ssion’sinde pendenta uditorsma  i
                                        ntainade   t
                                                   ail
                                                     e dde  pr
                                                             eci
                                                               ati
                                                                 ons  chedul
                                                                           et hati
                                                                                 su pdat
                                                                                       ed


                                                35
annually for additions and deletions. As of December 31, 2005, the net book value of fixed
assets owned by the Commission was $16,778.

(D) - TheExe  c
              utiveDi rector
                           ’sti
                              me s
                                 h eet
                                     sa res i
                                            g nedi nthisma nne rasar esul
                                                                        toft hemos   trec
                                                                                        ent
audits and standards reviews by Corporation staff and/or consultants when this practice was
suggested.

(E) - The subgrantee has incorporated the suggested segregation of duties to strengthen internal
controls.


Audi t
     or ’
        sComme    nt
(A) –We acknowledge and concur with the Commissi        on’sprocedur esfordr  awingdownf unds
    and reporting expenditures on the FSR. However, during the audit we noted adjustments
    were made to the accounting records after funds were drawn down and prior to the
    completion of the FSRs, which led to immaterial differences. It would strengthen the
    Commission’   sinternalc ont rol
                                   s, if procedures were developed requiring the Commission to
    periodically reconcile total amounts drawn from DHHS to total expenditures claimed on the
    grant.

(B) We acknowledge the accounting system shows the date of the reconciliation; however, there
    was no documentation the review was performed and reviewed periodically. It would
    st
     rengt
         hent  heCommi     ss
                            ion’ sinte rna lc ontr
                                                 olsi  fprocedure swe  r
                                                                       ede  velope dr equi ring
    documentation of the bank reconciliation being performed and reviewed on a periodically.

(C) We acknowledge that the Commission maintains a listing of the fixed assets purchased.
    However, there is no policy or procedure instructing the Commission to perform an
    inventory check to ensure all assets exist. The annual update of the depreciation schedule is
    only beneficial for identifying known deletions of assets. Performing an inventory check
    would identify all deletions, plus voluntary and unknown losses.              As such, our
    recommendation remains as stated.

(D) We did not review the audit and review by the Corporation and, as such, we are unable to
    comment about the recommendation made in that report. Nonetheless, internal controls
    would be enhanced if a direct supervisor, such as a Board Member, signed the Executive
    Di r
       ector’
            stime sheet.Thepur   poseoft  het imeshe etistoc er
                                                              ti
                                                               fyape   rson’stimea  l
                                                                                    location
    with a supervisor approving the allocation. The Administrative Assistant, who is the
    Exe cuti
           veDi rector’
                      sdi rects ubor di
                                      na t
                                         e ,ma  ynotbefully aware of all of the Executive
    Di r
       ector’
            sdut i
                 esand thereby may be unable to properly approve the timesheet. As such, the
    recommendation remains as stated.

(E) Wea   cknowl  e
                  dg et hes ubg rant
                                   ee’
                                     sdecisiont oi nc
                                                    orporatethes  ugge steds egreg ationof
    duties. However, we will recommend that the Commission monitor the subgrantee to ensure
    the duties remain segregated.




                                               36
Finding No. 7 –Program Expenditures Have Not Been Properly Booked into Accounting
Records

The Commission did not ensure that all subgrantee program expenditures had been properly
booked into the accounting records. At one subgrantee, Communities in Schools, we noted that
program expenditures reported for the AmeriCorps and the Learn & Serve America programs
were not all recorded in the subgrantee's accounting records. A reconciliation of costs had not
been performed between its books and the program expenditures reported to the Corporation. In
addition, administrative costs claimed were not recorded in the subgrantee's books.

AmeriCorps Provisions, Section C - General Provisions, Number 22 - Financial Management
Provisions, b. Source Documentation and Learn and Serve America General Grant Provisions,
Section B, General Provisions, Number 8 - Financial Management Provisions, b. Source
Documentation, states:
      The Grantee must maintain adequate supporting documents for its expenditures (Federal
      and non-Federal) and in-kind contributions made under this grant. Costs must be shown in
      books or records (e.g. a disbursement ledger or journal), and must be supported by a source
      document, such as receipt, travel voucher, invoice, bill, in-kind voucher, or similar
      document.

As a result, the subgrantee's books did not properly reflect actual program expenses. However,
costs were not questioned for the difference since the subgrantee was able to provide satisfactory
supporting documentation for expenditures claimed to the Corporation.

Recommendation

7A.   We recommend that the Corporation instruct the Commission to develop and implement
      adequate controls and procedures to ensure its subgrantees’program expenditures are
      properly recorded in their accounting records and reconciled to costs claimed.
7B.   We recommend that the Corporation instruct the Commission and the subgrantees to
      develop a corrective action plan to re-construct its accounting records to reflect actual
      program costs incurred.

Commission’  sRe spons e
The subgrantee is in the process of renovating the accounting system through new software. An
accounting system has been in place and documentation of expenditures have been evident
through examination of a spreadsheet, files and monthly reports generated by an outside
accounting firm.


Auditor’sComme   nt
Wea  cknowl e dget hes ubg rant
                              ee’sde c
                                     isi
                                       ontoi  mpleme nta new accounting system so that all
expenditures are properly recorded. However, we recommend that the Commission continue to
monitor the subgrantee to ensure the system is properly utilized and captures all allowable
expenditures.



                                               37
Finding No. 8 –Advance Payments Have Not Been Deposited Into a Federally-Insured
Interest Bearing Account.

The Commission did not ensure that all subgrantees that received advance payments were in
compliance with the AmeriCorps requirements. At one subgrantee, Communities in Schools, we
noted the subgrantee received advance payments exceeding the $120,000 per program year
threshold established in the AmeriCorps provisions. In addition, the advance payments were not
deposited into a Federally-insured interest bearing account. The amount for each program year
was as follows:

                      Program            Total Advance
                        Year               Received
                     2003-2004            $ 174,013
                     2004-2005            $ 181,600

AmeriCorps Provisions, Section C - General Provisions, Number 26 - Payments UnderThe
Grant, d. Interest-Bearing Accounts, states:
     The Grantee must deposit advance funds received from the Corporation in Federally-
     insured, interest-bearing accounts. The exceptions to this requirement follows: i.
     Institutions of High Education and Other Non-Profit Organizations. If a Grantee is covered
     by 45 C.F.R. 2543, it must maintain advance funds in interest bearing accounts unless: (a)
     it receives less than $120,000 in Federal funds per year; (b) The best reasonably available
     account would not be expected to earn interest in excess of $250 per year on Federal cash
     balances.

The Commission did not properly monitor and oversee the subgrantees to ensure that they were
in compliance with the AmeriCorps provisions regarding advance payments received. Since
cash advances were not deposited into an interest bearing account, the advances were not earning
interest to offset administrative expenses. Although support was provided by the subgrantee to
document the necessity of the advanced funds and that interest earned would have been less than
$250, the documentation was not prepared until it was requested during the audit.

Recommendation

8.    We recommend that the Corporation instruct the Commission to develop and implement
      adequate controls and procedures to ensure the Commission or its subgrantees are in
      compliance with AmeriCorps provisions for advance payments received.


Commission’   sRe spons e
The Communities in Schools board of directors has approved this action, and the new account
will be opened by September 1, 2006. Policies and procedures have been put in place to ensure
that all subgrantees deposit Federal funds into interest bearing accounts in the future.




                                              38
Auditor's Comment
We acknowledge the subgrantee's decision to implement new policies so that funds are
deposited in Federally insured interest bearing accounts. However, we recommend that the
Commission continue to monitor the subgrantee to ensure all funds continue to be deposited in
the account, and that all interest earned is properly recorded and netted against expenditures, as
necessary.




A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce, to a relatively low level, the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial schedules being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of the
internal control over financial reporting would not necessarily disclose all matters in the internal
controls that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are considered to be material weaknesses. We believe all of the
reportable conditions identified above represent material weaknesses.




Mayer Hoffman and McCann, PC
Conrad Government Services Division
Irvine, California
April 7,2006
                  Appendix A



Response of Oklahoma Community Service Commission
Commissioners:
Kevin Abel
Pam Ballard
~ a f a eJ.l Elias              August 23,2006
Gini Fox
Elizabeth Frame
Sandy Garrett
J ~ C Herron
      L                         Mr. Ronald F. Huritz
Beverly Hoster                  Office of the Inspector General
Kaye Kid?                       Corporation for National and Community Service
W. Hershel ~amirand,IIl         1201 New York Avenue, NW, Suite 830
                                Washington, DC 20525
Theresa D. Long
Joei McKuJey                    Dear Mr. Huritz:
Kevin Pipes
Gary D. Rader                   The Oklahoma Community Service Commission has reviewed the Draft
Danny ~ e n n e l s             Report on the results of the recent audit of grants awarded to the Commission
LeeAnn Shelton
                                by the Corporation for National and Community Service. The Commission's
                                response to this report is enclosed.
Linda Soos-Davis
James Stoval1                   We appreciate the opportunity to respond to the Draft Report. Please do not
Marie Trenary                   hesitate to contact me at 405-235-7278 or nshmock~,okamericorps.com
Be Van Tu                       should you have any questions or need additional information.
Sharon Voorhees
                                Sincerely,     A


Commission Staff:
Nancy C.Sha~~oclz
Executive Direcbr
                                Nancy b'kharrock
Melinda Poink
Assistant Director
                                Executive Director
Ann Garrett
A L s h . a t i v e Assistant

 Amy Caswell
Community Coordmabr




 1401 N. Lincoln Blvd. Oklahoma City, OK 73104 * (405)235-7278 FAX (405)235-7036 ww.okamericorps.com
                                                         e Commission




Finding No. 1 - Over-Claimed and Unallowable Members' Living Allowances

(A)   Living Allowances Claimed Exceeding the AmeriCorps Limit
      The Commission conducts a financial and programmatic monitoring site visit for each
      program when payroll and living allowance figures are examined. During the 2004-2005
      program year, Communities in Schools overpaid a 300 hour minimum time member by
      $679 by failing to complete the exit documentation in a timely manner. This
      overpayment was not included in the samplings of financial reviewed by the Commission
      staff.

      The Commission agrees that Communities in Schools should repay these funds and this
      adjustment will be reflected on the next Financial Status Report (FSR) for the period
      ending 09/30/2006.        Procedures will be developed for properly ensuring the
      reconciliation of living allowance expenses to enrollment reports.

(B)   Member not recorded in WBRS

      During the 2003-2004 program year, two subgrantees, Town of Okeene and American
      Red Cross each paid members who were not actually enrolled in the Web-Based
      Reporting System (WBRS). Both of these programs started on 09/01/2003, but their
      Grantee Information Profiles (GIP) were not uploaded into WBRS by the Corporation for
      National and Community Service until 1011112003 and 09/29/2003, respectively. It was
      impossible to enroll members into WBRS without the GIP in place. Each program had a
      member who began the term of service on 09/01/03 but ended the term of service before
      their information could be entered into WBRS.

      The Commission believes that these two errors were a result of the delay in uploading the
      Grantee Information Profiles into WBRS and the new rule going into effect for the first
      time that prohibited refilling positions. There have not been repeated occurrences of this
      issue.

      The Commission agrees that the subgrantees should repay the $1,782 in question, and
      these adjustments will be reflected on their next Financial Status Report (FSR) for the
      period ending 09/30/2006 and prior to closeout of this current three-year award.


Finding No. 2 - Program Costs Claimed Not In Accordance With the AmeriCorps
Provisions and Applicable Cost Principles
(A)    Over-claimed Member Health Care Benefits

       The Town of Okeene requested permission from the Corporation to pay health care
       benefits on a part-time member serving in a full-time capacity in program year 2003-
       2004. This request was approved by the Corporation; however the program director
       failed to ensure that the member served consistently on a full-time basis.

       The Commission agrees that the Town of Okeene should repay $843 and Communities in
       Schools should repay $1,608 for excess health care expenditures. These adjustments will
       be reflected on their next financial status report (FSR) for the period ending 09/30/2006
       and prior to closeout of the current three-year award.

(B)    Cost Incurred Not Within Grant Period

       The United Way of Ponca City claimed a total of $166 for July and August, 2003 utility
       expenses to the program year that actually began on 09/01/2003 under the new grant
       number 03ACHOK001. These costs should have been charged to the AmeriCorps grant
       00ASCOK037 that ended 08/31/2003 and has been closed. We need direction on the
       action required to resolve this finding.

(C)    Unallowable Depreciation Expenses
       The United Way of Ponca City claimed a depreciation expense of $418 ($210 Federal
       Share, $208 subgrantee match). Their books were adjusted at the instruction of an
       outside accounting firm when the expense of the equipment was deducted from the
       Periodic Expense Report, and the depreciation expense was added. The depreciation
       expense has been corrected and is reflected on the FSR dated 0313112006.


Finding No. 3 - Late Submission of Required Program Documents

The Commission has reviewed with program directors the requirement to submit within 30 days
into WBRS the enrollment, change of status and exit forms. Some of the forms were late
because the Corporation had not uploaded the Grantee Information Profile into WBRS at a time
appropriate to enroll members during the 30 day period. Another was late due to human error.

At the beginning of each program year, programs are given the dates that Financial Status
Reports and Progress Reports are due to the Commission. The Commission staff will remind the
programs prior to the due date so that all required documents are reported in a timely manner.

FSRs were submitted late to the Commission by subgrantees. The Corporation's due dates were
missed during the same period of time that FSR reporting was first transitioning from WBRS
into eGrants. This is not a common practice and should not occur. Procedures have been
reviewed and are in place to ensure that the Commission will meet all reporting deadlines in the
future.


Finding No. 4 - Unallowable and Unalllocable Match Costs
(A)    Commission - Administrative Match $286,522

       We utilized the commercial equivalency of publications and broadcasts generated by
       requests from the Commission and its programs as Administrative Match. The print
       media is documented by press releases and email requests to local newspapers. There are
       several instances that news stories and the value of the commercial benefit is presented,
       but there may be no evidence of the request when the publicity was generated by personal
       or telephone contact with local media. Public service announcements are documented by
       letters requesting air time and a list of the stations and number of broadcasts actually
       aired during a certain period. Without specific guidance from the Corporation to the
       contrary, the Commission believes that the documentation previously obtained from third
       parties is sufficient evidence to support the amount of matching funds recorded by the
       Commission.

(B)    Communities in Schools - ArneriComs Match $4,450

       Commission staff was aware of the two line items in question and had determined that
       the evaluation needed additional documentation and the training match was not
       allowable. Other sources of match were to be used for training, but the follow-up to the
       monitoring of this issue was not completed. The subgrantee had other sources of match
       that are more easily documented that should be used, and these adjustments will be made
       in the PER and FSR for the period ending 09/30/2006. This subgrantee is in the process
       of implementing a new accounting system that more accurately aligns with national
       service budget line items for the preparation of financial statements.

       Communities in Schools Learn & Serve Match - $37,860

       The subgrantee needs to utilize different sources of match in order to more easily
       document the match for the Learn and Serve program. The new accounting system along
       with utilization of different sources of match will eliminate the questions surrounding the
       documentation of this match.


(C)    YMCA of Greater Tulsa Learn & Serve Match - $43,337

       Match costs for one subgrantee were recorded for the period in which they occurred
       rather than the date that the expenditure occurred, and policies and procedures have been
       put in place to eliminate this occurrence in the future.


Finding No. 5 - Administrative Cost Percentage Exceeded Maximum Allowable

Of the total funds of $387,429 expended in the Learn and Serve America grant, less than 1% was
claimed in Administrative costs during the two-year period under review. Additionally, the
subgrantee would not be allowed to exceed their individual budget for any line item over a three-
year life of the grant award.
Finding No. 6 - The Commission Did not Have Adequate Controls in Place to Safeguard
Federal Funds

All funds drawn from the Division of Payment Management system are reimbursements of the
actual expenditures on the various grant awards. The information gathered to complete the
Financial Status Reports in eGrants and to complete the PSC 272 for the Division of Payment
Management is attached to the PSC 272 on a quarterly basis upon reconciliation of funds drawn
versus expenditures.

Accounting software shows the last dates of reconciliation of bank accounts and is viewed by the
direct supervisor on a regular basis and in accordance with the Commission's Policy and
Procedure manual.

The Commission does maintain a cumulative list of fixed assets - with information reflecting the
date acquired, the date disposed, the serial number, and award number. The Commission's
independent auditors maintain a detailed depreciation schedule that is updated annually for
additions and deletions. As of December 3 1, 2005, the net book value of fixed assets owned by
the Commission was $16,778.

The Executive Director's timesheets are signed in this manner as a result of the most recent
audits and standards reviews by Corporation staff and/or consultants when this practice was
suggested.

The subgrantee has incorporated the suggested segregation of duties to strengthen internal
controls.


Finding No. 7 - Program Expenditures Have Not Been Properly Booked into Accounting;
Records

The subgrantee is in the process of renovating the accounting system through new software. An
accounting system has been in place and documentation of expenditures have been ultimately
evident through examination of a spreadsheet, files and monthly reports generated by an outside
accounting firm.


Finding No. 8 - Advance Payments Have Not Been Deposited Into a Federally-Insured
Interest Bearing Account.

The Communities in Schools board of directors has approved this action, and the new account
will be opened by 09/01/2006. Policies and procedures have been put in place to ensure that all
subgrantees deposit federal funds into interest bearing accounts in the future.
                        Appendix B



Response of the Corporation for National and Community Service
                                    Cornoration for    fi




To:

From:

Cc:                        ain, Director of Am
              Sherry Wright, Audit Resolution Coordinator, Office of the CFO

Date:         August 26,2006

Subject:      Response to OIG Draft Audit Report: Audit of Corporation for National and
              Community Service Grants Awarded to the Oklahoma Community Service
              Commission


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Oklahoma Community Service Commission. We are pleased to note that
questioned costs totaled only about . I % of grant funds expended. The Commission addressed
many of these questioned costs in its response and, in some cases, has already corrected
expenditure reports.

We are addressing only one finding at this time. As noted in the response from the Oklahoma
Commission, the delay in entering member enrollments in WBRS did not result from tardiness
on the part of the programs. In 2003, the Corporation launched its eGrants system and the
interface with WBRS was not working properly. We authorized programs to enroll members if
they had their grant award, but could not yet access the related member enrollment component in
WBRS. This occurred for the Oklahoma program. Therefore, questioned costs related to
members enrolled during that period, but not entered into WBRS, may be allowed.

We will respond to all findings and recommendations in our management decision when the final
audit is issued; we have reviewed the findings in detail; and worked with the Oklahoma
Commission to resolve the audit.




                           1201 New York Avenue, NW a Washington, DC 20525
                                                 *
                                 202-606-5000 www.nationalservice.org
                                                                                                                   L
                          Senior Corps a AmeriCorps s Learn and Serve America            The President's Call to Service
